WAIVER

Supreme Court of the United States

No. 19-459
Texas Brine Company, LLC v. Florida Gas Transmission Company,
LLC, et al.
(Petitioner) (Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

© There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Reliance Petroleum Corporation

 

© Iama member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed j J ber.
Signature Choerd, : Ly. > } .

Date: oatanelah, 2019

Joseph L. Shea, Jr.
© Mr. OMs. O Mrs. O Miss

(Type or print) Name.
Firm___Bradley Murchison Kelly & Shea LLC
Address 401 Edwards Street, Suite 1000
City & State_ Shreveport, LA Zip 71101
Phone _(318) 227-1131

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc: see attached service list

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
